GR-90-98-033
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Boise City Police Department
Idaho
 
GR-90-98-033
 
July 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Boise City Police Department (BPD), Idaho. The BPD
received a grant of $375,000 to hire five sworn officers under Phase I, and $600,000 to
hire eight sworn officers under the Universal Hiring Program (UHP). The purpose of the
additional officers under each of the grant programs is to enhance community policing
efforts.

In brief, our audit determined that the BPD violated the following grant conditions:



The BPD charged unallowable costs (for overtime, uniform allowance, and shift pay
      differential) totaling $50,273 to the Phase I grant, and $17,528 to the UHP grant.




The BPD generally was not in compliance with the grant reporting requirements. The
      Department Initial Report overstated the number of sworn officers and was not submitted
      timely. The BPD did not submit one Phase I grant Financial Status Report (FSR) and five
      Phase I grant FSRs were not submitted timely. Also, four FSRs were not submitted timely
      for the UHP grant. In addition, the total program costs were overstated for both the Phase
      I and UHP grants.


These items are discussed in detail in the Findings and Recommendations section of the
report. Our scope and methodology appear in Appendix II.
#####